U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




          NATIONAL INSTITUTE OF
     STANDARDS AND TECHNOLOGY

                               Financial Statements
                                   Fiscal Year 1997


           Audit Report No. FSC-9864-8-0001/March 1998




                              PUBLIC
                              RELEASE



      Office of Audits, Financial Statements Audit Division
March 19, 1998


MEMORANDUM FOR:                 Raymond G. Kammer
                                Director
                                National Institute of Standards and Technology



FROM:                           Johnnie E. Frazier
                                Acting Inspector General

SUBJECT:                        Audit of NIST’s FY 1997 Financial Statements
                                Audit Report No. FSC-9864-8-0001

The attached audit report presents the results of the audit of the National Institute of Standards
and Technology’s (NIST) Combined Statements of Financial Position as of September 30, 1997,
and 1996, and the related Combined Statements of Operations and Changes in Net Position for
the years then ended. Also provided are reports on NIST’s internal controls and compliance with
laws and regulations, including management’s comments. The accompanying overview and
financial statements were prepared by NIST.

In accordance with the Chief Financial Officers (CFO) Act of 1990, as amended by the
Government Management Reform Act of 1994, an audited consolidated financial statement must
be prepared covering all accounts and associated activities of each office, bureau, and activity of
the Department. To facilitate the consolidated audit process, the independent certified public
accounting firm of Price Waterhouse LLP (PW) was contracted to audit NIST’s FY 1997
financial statements. The Office of Inspector General defined the audit scope, oversaw the
process of selecting the contractor, and oversaw the performance and delivery of the audit.

In the opinion of PW, the financial statements present fairly, in all material respects, the financial
position of NIST as of September 30, 1997, and 1996, and the results of its operations for the
years then ended, in conformity with the hierarchy of accounting principles and standards
approved by the principals of the Federal Accounting Standards Advisory Board. This is a
comprehensive basis of accounting other than generally accepted accounting principles.

Financial statement audits are a key gauge for measuring the progress of a bureau in meeting the
goals and objectives of the CFO Act. The results of the audit indicate that NIST has been
successful in establishing internal controls that facilitate the preparation of reliable accounting and
financial information. The PW FY 1997 report on internal controls identified no material
weaknesses and one matter that they consider to be a reportable condition. As identified in
previous reports, NIST needs to appoint a Chief Financial Officer.
During fiscal year 1997, the CFO position was filled on a temporary basis by two individuals;
however, the appointment of a permanent CFO is still pending. A number of events scheduled to
transpire during fiscal year 1998 will have a direct impact on the financial statements NIST will
prepare in the future. These include the planned move to a new fixed asset management system,
and the implementation of OMB Bulletin No. 97-01. This Bulletin will require NIST to issue an
entirely new set of financial statements that have never been issued in the past. In addition, PW
documented, in a separate management letter, a number of weaknesses in the overall security of
NIST’s information systems. We believe that these are examples of significant changes to
NIST’s business and will require the attention and leadership of a permanent CFO.

Our office reviewed a draft version of NIST’s overview to its FY 1997 financial statements. The
overview provides the linkage between the financial statements and the Government Performance
and Results Act (GPRA) of 1993, the legislation that requires government entities to collect and
report information on their performance in meeting goals and objectives. We shared our
observations and recommendations in a January 9, 1998, discussion paper and a subsequent
meeting with NIST management. NIST was responsive to our observations and
recommendations, making some revisions to the FY 1997 overview and indicating a willingness to
make additional revisions in the overview for future years.

The overview (1) identifies that NIST supports two of the three themes contained in the
Department’s Strategic Plan; (2) discusses financial condition and results, including the reporting
of certain financial measures; (3) includes significant discussion of performance results (output
and some outcome measures); and (4) discusses management challenges, including the planned
use of the alternative format for determining performance results. However, NIST can still make
improvements (i.e., additional years worth of data to facilitate trend analysis and more complete
discussion of results) to strengthen its presentation of performance results.

In order to improve the usefulness of the overview to decision-makers, such as OMB and the
Congress, we encourage NIST to address the observations contained in our discussion paper.
Also, continued improvement will be needed for the overview to be consistent with OMB Bulletin
97-01, Form and Content of Agency Financial Statements, to “provide a clear and concise
description of the reporting entity and its mission, activities, program and financial results, and
financial condition.” The OIG realizes that improving the overview is an iterative process and
encourages NIST to strengthen its discussion of the bureau’s results in next year’s overview.

We recognize NIST’s commitment to preparing high quality and meaningful financial statements.
As stated earlier, it is necessary that the accounting requirements set forth in OMB Bulletin 97-01
are taken into consideration for preparation of the FY 1998 financial statements. Implementation
of OMB Bulletin 97-01 poses tremendous challenges for various reasons. In particular, this
bulletin requires six statements to be prepared as compared to OMB Bulletin 94-01, which
required two. One of the six statements, the Statement of Net Cost, requires NIST to report its
costs by sub-organizations and programs, which should be based on the missions and outputs
described in NIST’s GPRA strategic and annual plans, its budget structure, and the Statement of
Federal Financial Accounting Standards No. 4, Managerial Cost Accounting Standards. As the
federal government has not been required previously to report information in such a manner for

                                                 2
financial or budgetary purposes, NIST will need to place appropriate emphasis on implementation
of OMB Bulletin 97-01.

As requested by DAO 213-5, please provide an audit action plan addressing the recommendation
in the attached report within 60 days of this memorandum. In addition, due to the sensitive nature
of the weaknesses documented in PW’s separate management letter, please submit an audit action
plan to address the EDP findings. The format for the plan is Exhibit 7 of the DAO. Under the
DAO, the Office of Inspector General must concur with your proposal. The DAO prescribes
procedures for handling any disagreements this office may have with the audit action plan.

If you wish to discuss the contents of this report, please contact George E. Ross, Assistant
Inspector General for Auditing, at (202) 482-1934, or Thomas McCaughey, Director, Financial
Statements Contract Audits Division, at (703) 603-0301. We appreciate the cooperation and
courtesies extended by NIST during the audit.


cc:    Gary Bachula
       Acting Under Secretary for Technology

       W. Scott Gould
       Chief Financial Officer and
        Assistant Secretary for Administration




                                                 3
To obtain a copy of this financial statements report,
please contact the OIG Publications Unit using any of
the following means:

Mail:        OIG Publications Unit
             Mail Stop H7099-C
             14th Street & Constitution Avenue, N.W.
             Washington, D.C. 20230

E-Mail:      oigreports@doc.gov

Telephone:   202-482-0231

FAX:         202-482-4266


For a complete listing of all OIG publicly released
reports, visit the OIG Internet Web Site.




             http://www.oig.doc.gov
